Dallas Real Estate Investor Sentenced to More Than 11 Years in Federal Prison, Without Parole, in Mortgage Fraud Scheme
FOR IMMEDIATE RELEASEFRIDAY, OCTOBER 19, 2007WWW.USDOJ.GOV/USAO/TXN
CONTACT: KATHY COLVINPHONE: (214)659-8600FAX: (214) 767-2898
DALLAS REAL ESTATE INVESTOR SENTENCED TO MORE THAN 11 YEARS
IN FEDERAL PRISON, WITHOUT PAROLE, IN MORTGAGE FRAUD SCHEME
DALLAS  Vernon Cooks, Jr., a/k/a Jibreel Rashad, was sentenced today to 135 months in federal prison for operating a mortgage fraud scheme in the Dallas area, announced U.S. Attorney Richard B. Roper, of the Northern District of Texas. In addition, at todays sentencing hearing, U.S. District Judge Sam A. Lindsay ordered that Cooks pay approximately $1.4 million restitution. Cooks, 40, is also presently under indictment in the Northern District of Texas in United States v. Donald W. Hill et al., Case Number 3:07CR-289, and is presently in federal custody on those charges. At the hearing today, Judge Lindsay noted that he would consider setting a Bureau of Prisons reporting date for Cooks if he posted bond in the other case.
Cooks was convicted in March by a federal jury on all counts of a federal indictment that charged him with operating a mortgage fraud scheme in the Dallas area from approximately May 2003 through December 2004. Specifically, Cooks was convicted of one count of bank fraud, seven counts of wire fraud, and six counts of money laundering. A codefendant in the scheme who pled guilty and testified at Cooks trial, Abdul Rahman Karriem, was sentenced in July to 18 months in prison and ordered to pay $270,333 in restitution. Another codefendant, Deidre Dione Anderson, was acquitted at trial.
At trial, the government presented evidence that Cooks, who represented himself as a real estate investor and owner of Rashad Investment Group, knowingly created a scheme to defraud mortgage lenders out of hundreds of thousands of dollars. Cooks used straw purchasers to buy single-family homes in the Dallas area for amounts far above fair market value. Straw purchasers testified that Cooks paid them to use their names and credit to purchase homes that Cooks was going to rent to others. Cooks told the straw purchasers he would pay all closing costs, mortgage payments and taxes associated with the properties until he transferred the properties out of their names within six months to a year after closing.
To support the inflated sales prices of the homes, Cooks used fraudulent appraisals. He also caused fraudulent loan applications and other supporting documents, including fraudulent tax returns, W2s, and employment, rent and deposit verifications, to be submitted to the mortgage lenders so that the straw borrowers would qualify for the inflated loans. Once the lenders funded the loans, Cooks used the fraudulently-obtained proceeds to pay off the original, bona-fide sellers and kept the remaining funds for himself. Cooks then allowed the mortgage loans to default in the straw purchasers names.
U.S. Attorney Roper praised the cooperative investigative efforts of the Federal Bureau of Investigation and the Federal Deposit Insurance Corporation - Office of Inspector General The case was prosecuted by Assistant U.S. Attorneys Tammy Reno and Marcus Busch.
# # #
Last Updated 11/05/07
contact the OIG